Audit Report




OIG-07-032

FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty
Cases Expired Before Enforcement Action Could Be Completed

March 2, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................... 1

    Results in Brief.............................................................................................. 2

    Background ...................................................................................................4

    Finding..........................................................................................................7

        The Statute of Limitations Expired for Hundreds of Cases
        Before Enforcement Action Was Completed by OFAC ....................................7

        Recommendations....................................................................................19

Appendices

    Appendix     1:      Objective, Scope, and Methodology ........................................ 26
    Appendix     2:      Civil Penalties: Selected Definitions......................................... 27
    Appendix     3:      Management Response ......................................................... 28
    Appendix     4       OIG Comments to Management Response ................................46
    Appendix     4:      Major Contributors to This Report ............................................50
    Appendix     5:      Report Distribution.................................................................51

Abbreviations

    ALJ                  administrative law judge
    FinCEN               Financial Crimes Enforcement Network
    FTE                  full-time equivalent
    OFAC                 Office of Foreign Assets Control
    SOL                  statute of limitations




                         FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired                  Page i
                         Before Enforcement Action Could Be Completed (OIG-07-032)
         This page intentionally left blank.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page ii
Before Enforcement Action Could Be Completed (OIG-07-032)
                                                                                 Audit
OIG
The Department of the Treasury
                                                                                 Report
Office of Inspector General




                     March 2, 2007

                     Mr. Adam Szubin
                     Director
                     Office of Foreign Assets Control

                     In April 2002, we reported that the Office of Foreign Assets
                     Control (OFAC) was limited in its ability to monitor financial
                     institution compliance with foreign sanction requirements due to
                     legislative impairments.1 During a follow-up audit to that report, we
                     identified concerns with the OFAC Civil Penalties Division’s case
                     closures and, as a result, initiated a separate review of penalty
                     case handling. Specifically, we were told by OFAC personnel that
                     OFAC did not have sufficient resources to handle increasing
                     penalty case workload. Accordingly, OFAC often closed cases
                     without determining whether penalties should have been assessed
                     or collected.

                     The objective of our separate review is to determine whether the
                     Civil Penalties Division had effective controls to ensure that penalty
                     cases were finalized before expiration of the statute of limitations
                     (SOL). Accordingly, we reviewed civil penalty policies and
                     procedures, interviewed Civil Penalties Division officials, and
                     reviewed reports of open and closed cases. We also identified
                     cases that were closed before penalties had been determined to be
                     valid or collected and identified the reasons for such closures. We
                     conducted our audit work from March 2005 to April 2006, with
                     the field work being performed at OFAC’s headquarters in
                     Washington, D.C. A more detailed description of our objective,
                     scope and methodology is included in appendix 1.




1
 FOREIGN ASSETS CONTROL: OFAC’s Ability To Monitor Financial Institution Compliance Is Limited
Due To Legislative Impairments (OIG-02-082; April 26, 2002).



                     FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 1
                     Before Enforcement Action Could Be Completed (OIG-07-032)
Results in Brief
                       During fiscal years 2002 through 2005, the Civil Penalties Division
                       took enforcement action against approximately 3,800 violators and
                       collected $10.32 million in civil penalties.2 Nonetheless, due to a
                       5-year SOL on imposing penalties, the Civil Penalties Division failed
                       to complete enforcement actions during this period for 295 cases.
                       The potential penalty assessments for these 295 cases totaled
                       $3.87 million.3 In 3 other cases, the expiration or impending
                       expiration of the SOL adversely affected the amount of penalties
                       assessed and collected. Out of $3.79 million in potential penalties
                       for these cases, which involved multiple violations, $2.70 million
                       was not pursued because the SOL expired for some of the
                       violations. After applying mitigating factors, Civil Penalties settled
                       for about $0.29 million of the $1.09 million of assessed penalties
                       on these three cases. Two cases related to frequent illegal
                       commercial exportations to Cuba. The third involved a travel
                       company sponsoring prohibited trips.

                       Several factors contributed to the failure to take timely penalty
                       action. Civil Penalties Division managers were hampered in the
                       monitoring and handling of penalty cases by the lack of sufficient,
                       accurate, and reliable information about case status and
                       disposition. In addition, OFAC management cited the following
                       other factors: (1) OFAC resources were not adequate to address
                       the number of sanction programs and violations, which increased
                       from 21 to 29 programs (as of fiscal year 2004) and by a reported
                       900 cases over a 4-year period; (2) administrative law judges (ALJ)
                       were not always available when needed to conduct required
                       hearings; and (3) the time other divisions or agencies took to
                       review the cases reduced the time available for the Civil Penalties
                       Division to complete its work. We believe these additional factors
                       could be alleviated if managers had sufficient, accurate, and


2
  When violations of OFAC-related laws or regulations occur, OFAC may take one or more of the
following actions—issue a warning or cautionary letter, revoke or suspend a license, make a criminal
referral, or assess civil penalties.
3
  The $3.87 million understates the potential penalties. OFAC did not have electronic data available on
the potential penalties for 37 administratively closed penalty cases.



                       FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired        Page 2
                       Before Enforcement Action Could Be Completed (OIG-07-032)
reliable data from an improved case database to use in making
more informed case management decisions.

We are recommending that the OFAC Director take the necessary
steps to assure that enforcement actions are completed prior to the
SOL expiring. These steps include: (1) improving the civil penalty
case database, (2) developing and implementing new policies and
procedures and associated monitoring systems and reports to
ensure that penalty cases are adjudicated timely and within the
SOL period, (3) implementing an effective case tracking mechanism
to ensure penalty cases are being addressed by the appropriate
OFAC offices in a timely manner, and (4) ensuring the resources
needed to process penalty cases are available in a timely manner.

In its response to our draft report, OFAC agreed with our
recommendations. The stated actions that had been taken or
planned are generally responsive to the intent of our
recommendations. OFAC, however, indicated our report had factual
errors and was misleading. Specifically, we incorrectly assumed in
the report that the purpose and operation of OFAC’s civil penalties
process is for OFAC to impose the maximum penalty allowed by
statute, when OFAC’s goal is to maximize enforcement and
compliance. OFAC also said we incorrectly calculated the civil
penalty amounts that would or could have been imposed in certain
instances. OFAC further maintained that it applied a reasoned
decision-making process regarding which cases it pursued,
weighing the relevance of its cases to improving OFAC compliance
against OFAC staffing constraints.

We have considered OFAC’s position on these points and have
made changes to our report where appropriate. However, we
disagree with OFAC on several points. We do not state, nor do we
mean for a reader to infer from the report, that maximizing revenue
through penalty assessments should be a goal of OFAC’s penalty
program, and we agree with OFAC that the program should be
conducted in a manner to maximize enforcement and compliance.
The penalty amounts we cite in the report are based on OFAC’s
own documents and discussions with OFAC Civil Penalties Division
staff. We recognize, as OFAC also states in its response, that
OFAC has the authority to mitigate or waive penalties for violations
in certain circumstances, and we do not question the



FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 3
Before Enforcement Action Could Be Completed (OIG-07-032)
                      appropriateness of such actions when warranted. Also, although
                      OFAC said it applied a reasoned decision-making approach to its
                      cases, the evidence we obtained and cited in the report did not
                      support this assertion.


Background
                      OFAC’s Mission and Sanctions Programs

                      The mission of OFAC, an office within the Department of the
                      Treasury (Treasury), is to administer and enforce economic and
                      trade sanctions, based on U.S. foreign policy and national security
                      goals, against targeted foreign countries, terrorists, international
                      narcotics traffickers, and those engaged in activities related to the
                      proliferation of weapons of mass destruction. All U.S. persons
                      must comply with OFAC regulations.

                      OFAC regulations involve blocking accounts and other assets of the
                      specified countries, entities, and individuals and rejecting financial
                      transactions with specified countries, entities, and individuals.
                      OFAC currently administers 30 economic sanctions programs
                      against foreign governments (such as Iraq, Iran, Sudan, Libya,
                      Liberia, Syria, Zimbabwe, Burma, and Cuba), entities, and
                      individuals.4 Through these sanctions programs, OFAC plays a key
                      role in efforts to stop the flow of funds to terrorist organizations. In
                      addition, OFAC implements sanctions programs against narcotics
                      kingpins of the so-called Cali Cartel and administers the Foreign
                      Narcotics Kingpin Sanctions Regulations. The restrictions provided
                      for in these programs affect both foreign and U.S. persons.




4
  On June 29, 2005, a sanction program on blocking weapons of mass destruction proliferators and
their supporters was added to bring the total to 30. This program was established by Executive Order
13382.




                      FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired      Page 4
                      Before Enforcement Action Could Be Completed (OIG-07-032)
                       OFAC Divisions With Principal Responsibility for Penalty Cases

                       We reviewed the penalty case process that was followed when
                       OFAC consisted of 10 functional divisions.5 During our review, the
                       10 OFAC divisions and their responsibilities were realigned and
                       placed under two operational offices and an administrative office.
                       The three offices are the Office of Program Policy and
                       Implementation, the Office of Investigations and Enforcement, and
                       the Office of Resource Management. The Office of Investigations
                       and Enforcement’s Civil Penalties and Enforcement divisions have
                       the primary responsibilities for imposing appropriate administrative
                       measures.

                       The Civil Penalties Division acts as OFAC’s civil enforcement arm
                       by imposing or settling civil penalties. Based upon the significance
                       of an apparent violation, it initiates penalty enforcement actions
                       after a decision that a warning letter cannot be justified. The Civil
                       Penalties Division determines the appropriate final OFAC penalty
                       action, completing the proceedings with either a settlement or
                       penalty imposition. In issuing prepenalty notices regarding Cuban-
                       related violations, OFAC informs the alleged violator that a hearing
                       before an ALJ can be requested.6

                       The Enforcement Division conducts civil investigations of alleged
                       OFAC violations that can result in any of the following actions:
                       (1) issue a warning letter, if the matter is determined not to
                       warrant a civil monetary penalty; (2) issue a prepenalty notice
                       initiating the civil monetary penalty process; or (3) refer the matter
                       for criminal investigation by another law enforcement agency.

                       The Civil Penalty Case Process

                       The Civil Penalties Division receives numerous referrals from
                       OFAC’s Enforcement and Compliance divisions. In addition, the
                       Civil Penalties Division receives civil and criminal referrals from the


5
  At the time of our audit, OFAC’s had 10 functional divisions: Licensing, Foreign Terrorist, International
Programs, Enforcement, Civil Penalties, Compliance Programs, Policy Planning, Blocked Assets,
Information Technology and Records.
6
  The ALJ process came about by statute, the Cuban Democracy Act of 1992, which amended the
Trading with the Enemy Act. The process involves only Cuban cases.



                       FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired          Page 5
                       Before Enforcement Action Could Be Completed (OIG-07-032)
Department of Justice and U.S. Customs and Border Protection, a
bureau of the Department of Homeland Security.

Civil Penalties Division personnel evaluate the evidence in each
referral and determine whether a violation of OFAC regulations has
occurred. If no violation has occurred, the case is administratively
closed. In the case of voluntary disclosures, the Civil Penalties
Division may negotiate and reach a settlement without issuing a
formal prepenalty notice.

If no settlement is reached, the Civil Penalties Division sends a
prepenalty notice to the alleged violator. Within 60 days of the
mailing, the alleged violator has the right to respond in writing. In
the response, the alleged violator can present evidence as to why
there is no basis for a penalty. In prepenalty notices that involve
Cuban-related violations, the individual or organization, in a
response, can request a formal hearing before an ALJ. Under these
circumstances, no further action is taken until the hearing is
conducted.

Civil Penalties Division staff review responses received to
prepenalty notices. Depending on the responses, the Civil Penalties
Division can mitigate the penalty. OFAC guidelines allow the Civil
Penalties Division to mitigate a civil monetary penalty by 25 to 75
percent, but all proposed mitigations are subject to internal review
before being submitted to the OFAC Director. The Civil Penalties
Division then prepares, for the OFAC Director’s signature, either a
letter stating that there was no violation or a proposed penalty
notice. Once a penalty notice is issued, the violator has 30 days to
make payment.

The key deadline for all Civil Penalties Division action is 5 years
from the date of the alleged infraction, based on an interpretation
of the pertinent SOL. Once a case is 5 years old, OFAC generally
cannot impose or successfully conclude a sanction action, unless
the violator is willing to waive (toll) the SOL for a certain time to
negotiate a settlement. The Civil Penalties Division publishes
completed enforcement actions on OFAC’s Web site each month.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 6
Before Enforcement Action Could Be Completed (OIG-07-032)
Finding
                       The Statute of Limitations Expired for Hundreds of Cases
                       Before Enforcement Action Was Completed by OFAC

                       During fiscal years 2002 through 2005, the Civil Penalties Division
                       reported taking enforcement actions against 3,803 violators, with
                       associated collections totaling $10.32 million.7 Nonetheless, during
                       this period, the Civil Penalties Division failed to complete actions on
                       295 sanction cases, with potential OFAC penalties totaling
                       $3.87 million, within the 5-year SOL on imposing penalties. In
                       three additional cases, the potential monetary penalties amounted
                       to $3.79 million, but $2.70 million was not pursued because the
                       SOL expired. In its response to the draft report, OFAC indicated
                       that the proposed penalties for these three cases should have been
                       $1.09 million. Mitigating factors reduced the settlements to
                       $290,361.

                       Several factors contributed to the failure to take timely penalty
                       action. Most important, Civil Penalties Division managers were
                       hampered in their monitoring and handling of penalty cases by the
                       lack of sufficient, accurate, and reliable information about case
                       status and disposition. We also found the following:

                       •   The former OFAC Director testified that resources were not
                           adequate to address the number of sanction programs and
                           violations, which increased from 21 to 29 programs and by a
                           reported 900 cases over a 4-year period.
                       •   ALJs were not always available when needed to conduct
                           required hearings.
                       •   The time other divisions or agencies took to review the cases
                           reduced the time available for the Civil Penalties Division to
                           complete its work.

                       To improve the civil penalty program, Treasury advised Congress
                       that a performance baseline would be established for OFAC during
                       fiscal year 2006. The measure, as outlined in Department of the
7
 When a violation occurs, OFAC may take one or more of the following actions—issue a warning or
cautionary letter, revoke or suspend a license, make a criminal referral, or assess a civil penalty.



                       FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired       Page 7
                       Before Enforcement Action Could Be Completed (OIG-07-032)
Treasury – Congressional Justification FY 2007, is to be the
number of civil penalty cases that are resolved within the SOL
period. We believe establishing such a baseline is a good first step
to determining resource needs for the OFAC penalty function. An
effective penalty program, both civil and criminal, serves as an
important deterrent to those who would conduct activities that
undermine or prevent these sanctions from achieving their foreign
policy and national security goals. When substantial numbers of
penalty cases must be administratively closed because the SOL
was exceeded, the deterrent value of OFAC’s penalty authority is
significantly weakened, and the wrong message is sent to those
conducting illegal transactions, trade, or travel.

Cases Were Closed With No or Minimal Penalty Collections

Because of the expiration of the 5-year SOL on imposing penalties
for OFAC violations, the Civil Penalties Division did not collect
penalties from at least $6.57 million in assessments during the
4-year period covering fiscal years 2002 through 2005. The Civil
Penalties Division did not complete actions on 295 sanction cases,
which were associated with potential OFAC penalties totaling
$3.87 million. The 295 included: (1) 163 cases closed
administratively, with potential OFAC penalties totaling
$2.26 million; (2) 73 cases that were cancelled because OFAC
could not provide ALJs to conduct hearings involving Cuban-related
violations, with potential penalties totaling $0.67 million; and
(3) 59 cases in the process of being closed, with potential penalties
totaling $0.94 million.

In three additional cases, which had potential monetary penalties of
$3.79 million, $2.70 million was not pursued because the SOL
expired. OFAC indicated that $1.09 million was proposed as
penalties for these three cases. The eventual settlements totaled
$290,361, after Civil Penalties took into consideration mitigating
factors in the penalty phase dialogue. Normally, civil penalties are
mitigated by 25 to 75 percent.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 8
Before Enforcement Action Could Be Completed (OIG-07-032)
                             Table 1: Summary of Potential Penalties That Were not Assessed
                                      (dollars in millions)


                                                                                 Number       Potential penalties
                             Case actions                                        of cases          not assessed
                             Administratively closed                                  163                  $2.26
                             No ALJs available to conduct hearings                     73                    .67
                             In process of being closed                                59                    .94
                             Subtotals                                                295                  $3.87
                             Amounts not pursued due to SOL expiration                  3                   2.70
                             Totals                                                   298                  $6.57

                             Source: Civil Penalties Division case files.


                         The categories in table 1 are explained more fully in the sections
                         that follow.

                          Cases Administratively Closed

                         The Civil Penalties Division provided us with copies of reports that
                         identified and summarized penalty cases closed during the period
                         covering fiscal years 2002 through 2005. By reviewing the history
                         files for each case, we identified cases closed because the SOL had
                         expired. We also noted the amount of the potential penalty
                         assessment if the information was available. From these data, we
                         identified 163 penalty cases, involving at least $2.26 million in
                         potential penalty assessments that had been closed because of
                         SOL expirations.8

                         As table 2 illustrates, the number (and associated potential penalty
                         assessments) of cases administratively closed because of SOL
                         expirations rose steadily, from 23 cases in 2002 to 66 cases in
                         2005.




8
 For 37 of the 163 penalty cases, the penalty assessment amounts were not recorded in the automated case
management system. Accordingly, the $2.26 million estimate in potential penalties not assessed is understated.




                         FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired              Page 9
                         Before Enforcement Action Could Be Completed (OIG-07-032)
       Table 2: Cases Closed During Fiscal Years 2002
                Through 2005

                                           Number of           Potential penalty
      Case report fiscal year                 cases                assessment
      2002                                         23                 $24,460
      2003                                         28                 273,510
      2004                                         46               1,057,888
      2005                                         66                 904,073
      Totals                                      163              $2,259,931
       Source: Civil Penalty Division’s closed case reports.

Cases Being Prepared for Closure Because of OFAC’s Inability to
Conduct Required Hearings

At the conclusion of our field work, the Civil Penalties Division was
preparing to close 73 Cuban-related penalty cases, involving
$665,427 in potential penalty assessments, because OFAC was
unable to provide ALJs to conduct required hearings requested by
the alleged violators. OFAC’s inability to conduct hearings is
highlighted on several legal advocacy Web sites to alert those who
may be subject to Cuban-related sanctions. As a result, OFAC’s
ability to ensure compliance with these sanctions has been
negatively affected.

Other Cases Being Prepared for Closure

During our review, Civil Penalties Division personnel brought to our
attention additional penalty cases that were in the process of being
closed because their SOLs had expired. We reviewed the
documentation and confirmed that 59 cases involving potential
penalty assessments totaling $939,479 were being readied for
closure due to SOL expiration.

Proposed Penalties Affected by SOL

OFAC personnel also reported instances in which the expiration or
impending expiration of the SOL had adversely affected the amount
of penalties assessed and collected. Specifically, we identified
three penalty cases in which violators either refused to extend the
SOL on older violations or were delaying the resolution of existing



FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired               Page 10
Before Enforcement Action Could Be Completed (OIG-07-032)
violations because of impending SOL expiration dates. These
delaying tactics were part of the cause for the SOL expiring and
potential penalties not being pursued for many individual
transactions.

The former Acting Chief of Civil Penalties indicated that, because
many cases had already expired, OFAC was eager to settle the
three cases and accepted smaller amounts. These three penalty
cases had potential monetary penalty assessments amounting to
$3.79 million, but $2.70 million was not pursued due to the SOL
expiring. For example, for Violator A, the January 2001 prepenalty
notice indicated a proposed penalty of $1,279,521. OFAC, in its
response to our draft report, indicated that the correct proposed
amount should have been $1,009,651, meaning that $269,870
was not pursued because the SOL expired. However, the
prepenalty notice also indicated that 19 additional transactions
were not assessed as penalties since the SOL could be raised as a
defense. In total, OFAC did not pursue penalties of $753,644 due
to the SOL expiring.

OFAC proposed penalties of $1.09 million to the three violators.
Ultimately, mitigating factors reduced settlements to $290,361.
Many mitigating factors caused the actual penalties collected to be
reduced to $290,361. For Violator B, these factors included eight
different conditions, such as voluntary disclosure, first offense, and
a conflict of law with another country. OFAC stated that any of
these conditions would warrant significant mitigation. Similarly,
Violator C had factors to warrant mitigation such as jail time
served, remedial actions taken, and the fact that the violator no
longer conducts business.

The cases in question are listed below.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 11
Before Enforcement Action Could Be Completed (OIG-07-032)
                         Table 3: Examples of Cases Where Penalties Were Affected by SOL Expiration

                                                               Amount
                                                              potential
                                                          penalty was
                                                        reduced when
                                                       SOL expired for
                                           Potential          selected      Proposed      Final mitigated
                           Violator         penalty       transactions        penalty            penalty
                           A           $1,763,295           $753,644      $1,009,651            $250,000
                           B            1,739,969          1,689,181          50,788              32,500
                           C              285,895            254,451          31,444               7,861
                           Totals      $3,789,159         $2,697,276      $1,091,883            $290,361
                         Source: OIG analysis.

                         Data Indicated Lack of Progress in Case Status Over Several Years

                         The Civil Penalties Division maintained reports that listed, for each
                         sanction program, the number of cases assigned to status
                         categories such as alternative dispute resolution, prepenalty,
                         penalty, hold, and pending.9 Over a 3-year period, the annual totals
                         reported for the majority of categories remained the same. Table 4
                         on the next page contains a sample of these data.




9
    See appendix 2 for definitions of these terms.



                         FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired     Page 12
                         Before Enforcement Action Could Be Completed (OIG-07-032)
                        Table 4: Examples of Cases Where Status Remained Unchanged
                                 During Fiscal Years 2002-2004 (note a)
                     Sanction program/status                        2002         2003           2004
                     Cuba
                        Alternative dispute resolution                497          497            497
                        ALJ                                            72           72             72
                        Hold                                           45           45             45
                        Pending                                       108          108            108
                        Prepenalty                                    140          140            140
                        Penalty                                       213          213            213
                     Iran
                        Hold                                           22           22             22
                        Prepenalty                                    186          186            186
                        Penalty                                        13           13             13
                        Pending                                        10           10             10
                     Weapons of mass destruction
                        Prepenalty                                     13           13             13
                        Penalty                                         1            1              1
                        Pending                                         2            2              2
                        Source: Civil Penalties Division’s annual status reports.
                        Note a: We did not review penalty files for the cases in this schedule and have no
                                additional information about the specifics of each case.


                      The lack of movement within the program and status categories
                      shown in Table 4 should have indicated to OFAC management that
                      numerous cases were not being promptly addressed. However,
                      when we asked why the status of these cases had not alerted the
                      Civil Penalties Division to a problem, we were informed by the
                      Acting Chief of Civil Penalties that the reports containing these
                      data were never requested, reviewed, or monitored by OFAC
                      management or Civil Penalties Division personnel.

                      Our analysis of open penalty cases as of December 20, 2005,
                      identified an additional 232 penalty cases in which the alleged
                      violations took place prior to 2001. These penalty cases appear to
                      have also exceeded their SOL expiration dates and are in addition
                      to the 132 penalty cases previously identified and earmarked for
                      closure by OFAC personnel.10

10
  The 132 penalty cases are a total of the 73 cases with no ALJs available to conduct hearings and the
59 cases with expired SOL.




                      FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired              Page 13
                      Before Enforcement Action Could Be Completed (OIG-07-032)
Penalty Database Lacks Sufficient, Accurate, and Reliable
Information

The information in the Civil Penalties Division database is not
sufficient, accurate, or reliable, and therefore does not allow
managers to effectively monitor the disposition and aging of cases.
A database containing higher-quality information would allow
OFAC management to periodically review and evaluate case status
reports. As an example of the database not containing adequate
information to monitor the status of cases, a date field specific to
SOL was not added formally to the database until August 2005.
Additionally, OFAC employees responsible for keeping the data up
to date and accurate did not consistently add penalty data to the
system, as required. These problems were compounded because
OFAC lacked effective policies and procedures to ensure that all
penalty case data were entered in a uniform and timely manner.

Penalty Database Is Hampered by Missing Data

According to Civil Penalties Division personnel, staff often failed to
enter SOL dates into the database. Prior to the recent change to
the database formatting to accept SOL dates in a distinct field,
staff would sometimes enter SOL data into the comments field.
More often, Civil Penalties Division personnel manually recorded
SOL information in the hard-copy penalty records. As a result, Civil
Penalties Division managers and personnel were unable to use the
database to retrieve and monitor SOL data efficiently and promptly.
The lack of SOL information in the Civil Penalties Division database
made it difficult for managers to effectively monitor cases and
contributed to the number of cases that had to be closed because
of SOL expiration.

Minor modifications to the database fields, such as adding the date
field specific to SOL earlier, could have resulted in more efficient
monitoring efforts and avoided many of the SOL problems.
However, during the period under review, there was a general lack
of coordination and communication between the Civil Penalties
Division and the Information Technology Division regarding the data
fields required and the use of the database.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 14
Before Enforcement Action Could Be Completed (OIG-07-032)
                      Civil Penalties Personnel Did Not Enter All Required Data

                      During our review, OFAC personnel modified the data fields in the
                      penalty case modules to allow the SOL date to be entered into
                      each penalty record. Civil Penalties Division personnel are trying to
                      ensure that this information is entered into each current record.
                      However, our review of open penalty case files as of December 20,
                      2005, revealed that 670 out of 2,111 penalty cases (31 percent)
                      were still missing the date of the alleged violation. Therefore, once
                      the process of entering the date of the alleged violation for each
                      case is completed, additional penalty cases may need to be closed
                      due to SOL expirations.

                      Former OFAC Director Cited Staffing and Workload Issues for Lack
                      of Progress on Cases

                      According to the former OFAC Director, cases were often closed
                      because resources were insufficient to ensure timely disposition of
                      penalty cases. He indicated that excessive case workloads resulted
                      from an increase in the number of sanction programs without a
                      corresponding increase in personnel. In September 2004, the
                      former OFAC Director testified in a court hearing that the number
                      of OFAC sanction programs increased from 21 to 29 from fiscal
                      year 2001 through fiscal year 2004 but that staffing had not
                      grown commensurately. In fiscal year 2002, he said the Civil
                      Penalties Division had from 3 to 4 personnel handling cases, and
                      each handled a workload of 736 cases. During fiscal year 2004,
                      staffing doubled to 6 to 8 personnel, and each had an average
                      workload of 477 cases.11 When Civil Penalties Division personnel
                      were unable to address penalty cases in a timely manner, case
                      closures due to SOL expirations increased.

                      No data currently exists to quantify the average amount of time to
                      process a penalty case. Because the Civil Penalties Division process
                      is subject to many reviews and reviewers within OFAC, estimating
                      a time frame to complete an average case would be difficult.
                      Further, the former OFAC Director cited many mitigating factors,
                      such as Freedom of Information Act requests and increased focus

11
  The caseload and cases per staff data come from the September 30, 2004, testimony of the former
OFAC Director before the U.S. District Court for the District of Columbia on Civil No. 03-1356 (JDB).



                      FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired     Page 15
                      Before Enforcement Action Could Be Completed (OIG-07-032)
                        on Cuban enforcement sanctions, which lengthened the time to
                        process cases.

                        Despite the information presented in the court testimony, we could not
                        readily establish whether OFAC had assigned adequate resources, in the
                        past or currently, to address the Civil Penalties Division workload.
                        OFAC’s database was not sufficiently reliable to allow us to determine
                        the number of open cases at any point in time. For example, 670
                        penalty cases listed in a December 2005 report lacked the date of the
                        alleged violation, which is required to determine whether a case’s SOL
                        has expired. To find those dates would have meant reviewing the paper
                        files for each case. Such a manual process appears to have been a
                        contributing factor in the Civil Penalties Division not being able to
                        effectively track the status of cases. Without complete case data, the
                        Civil Penalties Division lacked an accurate inventory of the number of
                        open cases at any point in time.

                        The Acting Director of the Civil Penalties Division has instructed his
                        staff to perform a thorough review of all OFAC penalty cases to
                        determine how many valid cases are in the database. Once that review
                        is completed, OFAC should be able to more accurately determine the
                        resources needed to address its penalty case workload.

                        ALJs Were Not Always Available to Conduct Hearings

                        In 2001, Treasury placed a renewed emphasis on OFAC’s
                        enforcement capabilities involving Cuba. As a result, the number of
                        enforcement letters sent by OFAC for travel-related violations
                        increased, from 188 prepenalty notices in 2000 to 697 in 2001.
                        The level dropped to 447 in 2002 and to 350 in 2003. According
                        to a Congressional Research Service report,12 this drop occurred
                        because of the public’s attention to increased enforcement.

                        OFAC is required to offer the option of a hearing conducted by an
                        ALJ for individuals and entities alleged to have violated Cuban-
                        related travel sanctions. These violations typically involve penalty
                        assessments that range from $3,000 to $7,500 before mitigation.
                        Once a hearing is requested, no further action is taken by OFAC
                        until the hearing is conducted.

12
     CRS Report: Cuba: US Restrictions on Travel and Remittances, Updated May 10, 2005.



                        FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 16
                        Before Enforcement Action Could Be Completed (OIG-07-032)
During our review of the OFAC penalty database, we noted a large
number of older cases involving Cuban-related violations that were
awaiting hearings. Civil Penalties Division personnel told us that a
number of such cases were in the process of being closed because
OFAC was unable to provide the ALJs required to conduct the
hearings. We identified 73 cases, involving a total of $665,427 in
potential penalty assessments that were being prepared for closure.
We also identified an additional 43 cases that had been awaiting
hearings but are subject to closure because their SOLs had expired.

The inability of OFAC to conduct hearings was publicized by
several organizations that oppose any Cuba-related travel
restrictions. On their Web sites, these organizations advised alleged
violators to obstruct efforts by OFAC to prosecute such violations
by requesting a hearing when responding to the prepenalty notice.
In addition to OFAC’s inability to provide ALJs, the Web sites
noted that OFAC had historically filed such hearing requests
without conducting any further follow-up penalty action.

Internal Tracking of OFAC Penalty Cases Needs Improvement

In his September 2004 testimony, the former OFAC Director stated
that it often took a long time to process a large number of civil
penalty actions. He noted that delays occurred for a number of
reasons, including lack of resources, shifting priorities, and external
factors such as extensive Freedom of Information Act requests and
a congressionally mandated review of OFAC operations.

The Civil Penalties Division receives cases as referrals from other
groups, such as OFAC’s Compliance and Enforcement divisions, and
from U.S. Customs and Border Protection. These entities can expend
considerable amounts of time reviewing the cases before sending them
to the Civil Penalties Division, and the SOL continues during these
reviews. The longer these entities take to refer cases to the Civil
Penalties Division, the less time the Civil Penalties Division has to
adjudicate cases before their SOLs expire. OFAC refers to the time it
takes other divisions or entities to work on a case before referring it to
the Civil Penalties Division as “upstream aging.”




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 17
Before Enforcement Action Could Be Completed (OIG-07-032)
Our review of the fiscal year 2005 Civil Penalties Division case
report dated December 2, 2005, identified 272 cases that had both
the date of the alleged violation and the date on which the case
was entered into the database. From the date of the alleged
violation, it took an average of 21 months for these cases to be
entered into the database. Six cases were not entered into the
system until after the SOL had expired. Another 23 cases were
entered after 4 years of the 5-year SOL had lapsed.

When the Civil Penalties Division decides that a penalty case is
warranted, the proposed case goes through an internal OFAC
review process, during which the case can be transferred among
the various OFAC divisions. During our examination of the 66
penalty cases closed in fiscal year 2005 due to SOL expiration, we
found that it took an average of nearly 4 years for OFAC personnel
to conduct these reviews before closure action was eventually
undertaken.

For example, penalty cases can be reviewed by OFAC’s Office of
Chief Counsel at any time during the adjudication process. Cases
often remain with the General Counsel for extended periods of time
because of resource limitations and changing priorities. An OFAC
report, titled General Counsel Report, identifies the penalty cases
being reviewed by the Office of General Counsel and the number of
days that the office has had possession of the cases. The
November 30, 2005, report listed 53 penalty cases that had been
under review from 9 days to nearly 17 months.

Further, we found that data entry into the Civil Penalties Division
database was sporadic and inconsistent. At times, the case history
portion of the database contained SOL dates. However, the
notations recorded in the case history files were at times difficult
to understand because of cryptic notes entered by and the use of
nonstandard acronyms and abbreviations devised by the various
penalty personnel assigned to the cases. In addition, some
personnel lacked a copy of applicable policies and procedures to
refer to when processing penalty cases. The copy that we were
provided was more than 10 years old.

OFAC’s lack of an effective system and accessible, up-to-date
policies and procedures for tracking civil penalty cases, including



FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 18
Before Enforcement Action Could Be Completed (OIG-07-032)
       the status of reviews and referrals within OFAC, hinders its ability
       to take timely action on cases and to avoid case closures due to
       SOL expiration.

       OFAC Efforts to Address Deficiencies

       Treasury recently informed Congress that a performance baseline
       for Civil Penalties would be established during fiscal year 2006.
       The measure, as outlined in the Department of Treasury –
       Congressional Justification FY 2007, is to be the number of civil
       penalty cases resolved within the SOL period. To meet its goal, the
       Civil Penalties Division has undertaken efforts to address the
       deficiencies that are hampering its operations.

       The Civil Penalties Division’s Acting Director and his staff have
       been developing an inventory of all cases so that they have an
       accurate baseline of cases that require adjudication. The staff is
       also ensuring that SOL expiration dates are being entered into the
       Civil Penalties Division database for all penalty cases. The Civil
       Penalties Division and the Information Technology Division are
       coordinating efforts to determine the types of reports and data
       needed to ensure that penalty cases are processed and monitored
       in a timely manner.

       We believe that OFAC’s current efforts and the priority assigned by
       Treasury to resolve the SOL issue will help address the problems
       identified in our report. We are making several recommendations to
       focus and assist these efforts.

Recommendations
       We recommend that the OFAC Director assure that enforcement
       actions are completed prior to the SOL expiring by doing the
       following:

       1. Ensure that the information, including accurate SOL data, in the
          civil penalty database is brought up to date and maintained in a
          complete and accurate manner going forward.




       FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 19
       Before Enforcement Action Could Be Completed (OIG-07-032)
   Management Response

   OFAC agrees with the recommendation to maintain SOL data in
   the case management database in a complete and accurate
   manner going forward. As of August 3, 2005, an SOL field has
   been added and since that date, the SOL field has been
   accurately filled in for all cases, and management is ensuring
   that this data and other data are maintained in a complete and
   accurate manner going forward. This enhancement was a
   further refinement of the enhancements made in 2004 when a
   data field was added to capture the violation date. Because the
   SOL is the same for all cases (5 years from the date of the
   violation), it has been possible since 2004 to run a report on the
   SOL dates using the violation date fields that were populated.
   Thus, OFAC can adequately determine SOL data from the
   database beginning with cases opened in 2004. All cases since
   2003 have been assigned to Civil Penalties officers. The Civil
   Penalties officers continually review and prioritize their
   caseloads based on a number of factors including the SOL.

   OIG Comment

   We believe OFAC’s action to add the SOL data field, fill in the
   data for all cases, and ensure that this and other data are
   maintained in a complete and accurate manner satisfies the
   intent of our recommendation. Although OFAC indicated in its
   response that the violation data field can provide the same
   information and has been available since 2004, we found during
   our review of a December 2005 report of 2,111 open cases
   that 670 (31 percent) were missing the date of the alleged
   violation (see p. 16).

2. Develop and implement policies and procedures and associated
   monitoring systems, management reports, and other controls to
   ensure that penalty cases are adjudicated in a timely manner
   and within the SOL period.

   Management Response

   OFAC management agrees with this recommendation to develop
   and implement controls to ensure penalty cases are adjudicated



FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 20
Before Enforcement Action Could Be Completed (OIG-07-032)
   in a timely manner. Some of these controls already have been
   implemented; others are expected to be implemented within the
   next few months. Previously, Civil Penalties officers brought
   cases nearing the SOL to the attention of their manager;
   management is now using the case management database to
   pro-actively initiate a review of cases with the relevant Civil
   Penalties officers. The Assistant Director for Civil Penalties is in
   the process of instituting a weekly review of the case
   management database to identify high priority cases, including
   those nearing the SOL. This weekly review process is expected
   to be in place by March 1, 2007. The Assistant Director has
   already instituted a weekly meeting with all Civil Penalties
   officers to review each officer’s caseload and to determine the
   proper case disposition of individual cases, taking into account
   the SOL expiration date, the potential for encouraging
   compliance, the size of the caseload, and the available staffing.
   Although these new controls will ensure that OFAC stays aware
   of all penalty file SOL data, on occasion cases may still be
   closed due in part to nearing SOL dates. If OFAC faces a choice
   between devoting limited resources to moving forward either
   (1) a case nearing SOL with no compliance or deterrence value
   or (2) a more recent case that, if acted on quickly, would have a
   much greater compliance or deterrence value, OFAC may
   choose to close the older case in order to focus on the more
   recent one, which will more effectively implement the
   President’s sanctions policy.

   OIG Comment

   Recognizing that current staffing constraints may preclude the
   timely adjudication of all cases before SOL expiration and that
   case prioritization is necessary, we believe OFAC actions and
   planned actions, if fully implemented, generally meet the intent
   of our recommendation. OFAC should, however, ensure the
   reasoning behind administratively closing cases that are nearing
   SOL with no compliance or deterrence value is documented in
   the applicable case files, and concurred with by management.

3. Implement an effective tracking system to help ensure that
   potential penalty cases being reviewed by the various OFAC
   offices are addressed in a timely manner.



FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 21
Before Enforcement Action Could Be Completed (OIG-07-032)
   Management Response

   OFAC agrees with this recommendation and already has
   implemented it. In 2005, the former OFAC Director ordered a
   review of the development of OFAC violation cases. In
   mid-2005, the former Director reorganized OFAC. According to
   OFAC, the reorganization clarified and in some cases shifted
   responsibility to perform certain enforcement and civil penalties
   functions. Functions previously shared between divisions are
   now assigned to a single division. The reorganization was aimed
   at facilitating the development of sanctions violation cases,
   clarifying who reviewed the cases and when, and clarifying the
   process for determining which OFAC enforcement action should
   be applied.

   Since August 3, 2005, an SOL field for penalty cases has been
   added and accurately filled out in the case management
   database. As discussed in its response to recommendation 2,
   the Assistant Director for Civil Penalties (1) has instituted
   weekly meetings to review Civil Penalties officers’ caseload and
   prioritize them taking into consideration the relevant SOL dates
   and (2) is in the process of implementing weekly reviews of the
   case management database. The case management database
   allows complete tracking of every penalty file from its entry into
   the system and assignment to a Civil Penalties officer, through
   the drafting of prepenalty and penalty notices, through review
   by the Office of Chief Counsel, and to final disposition. The
   database allows Civil Penalties officers to review all information
   about a particular file at any time, including the file’s current
   location and the number of days it has been at that location.
   The Civil Penalties officers now use the case management
   database on a regular basis to track the files that make up their
   respective caseloads. Through this regular use of the database
   and the weekly meeting of the Assistant Director for Civil
   Penalties, OFAC is ensuring that Civil Penalties cases are
   handled in a timely manner.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 22
Before Enforcement Action Could Be Completed (OIG-07-032)
   OIG Comment

   We believe OFAC’s actions, if implemented as described, meet
   the intent of our recommendations.

4. Once the active penalty case workload is determined, ensure
   the resources (including ALJs) needed to process penalty cases
   are available in a timely manner.

   Management Response

   OFAC agrees with the recommendation. OFAC has improved its
   case management process, as described in the response to
   recommendation 3. According to OFAC, even after the reforms
   are undertaken, the OFAC Civil Penalties caseload is substantial;
   it currently averages in excess of 166 cases per Civil Penalties
   officer. The Civil Penalties Division conducted a manual desk
   audit of all pending civil penalties cases, and reconciled them to
   the database.

   OFAC disagrees that civil penalties cases were inadvertently
   dropped due to OFAC’s inability to track its cases and their SOL
   expiration dates. During 2002 to 2005, staff and management
   actively reviewed and discussed cases nearing their SOL
   expiration dates and decided which cases, given the staffing
   limitation, to pursue and which cases to drop to best ensure
   OFAC sanctions compliance. The Civil Penalties Division’s
   problem, in part, has been that it has a large caseload and
   previously received many of these cases close to their SOL
   expiration date.

   Most cases are settled through a negotiating process that is
   time consuming and involves mitigating the potential penalty
   considering the circumstances of the violation and the possible
   commitment on the part of the violator to employ a more robust
   compliance effort. Maximizing the civil penalties collection is not
   the objective of the civil penalties process, and in some cases,
   resolving a case without imposing a penalty may be the best
   solution.




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 23
Before Enforcement Action Could Be Completed (OIG-07-032)
   Having an accurate case count and an improved case
   development and tracking process may give Civil Penalties staff
   more lead time to consider the disposition of its cases before
   the SOL expiration date nears. Under current staffing levels,
   however, cases with minimal impact on improving sanctions
   compliance may not be pursued. Increasing staffing levels
   would permit the Civil Penalties Division to more fully address
   these latter cases. The needs of the Civil Penalties Division,
   however, will continue to be addressed in light of the needs of
   OFAC’s other divisions and their responsibilities, such as
   identifying and blocking terrorist assets.

   With respect to ALJ resources, OFAC noted that the use of
   ALJs applies to sanctions programs premised on the Trading
   With the Enemy Act (TWEA) and that most current TWEA cases
   are related to the Cuba sanctions program. Once a U.S. person
   requests an ALJ hearing, the SOL is suspended for the case and
   the timing of the hearing depends upon the availability of an
   ALJ. This means the case does not have to be dropped, but its
   ultimate adjudication may be delayed. Even after the case is
   assigned to an ALJ, the Office of Chief Counsel still may
   engage in settlement discussions. Nevertheless, OFAC seeks to
   expedite the ALJ process. OFAC currently has contracts with a
   number of ALJs, which have facilitated a more timely hearing of
   these cases. The backlog has been cleared out and OFAC
   anticipates that new requests for administrative hearings will be
   handled in a more expeditious manner. In November 2006, the
   Office of Chief Counsel hired a paralegal who will assist in
   handling future ALJ hearing requests.

   OIG Comment

   We believe OFAC’s actions should improve its case
   management process going forward. We did not see evidence
   during our review to support OFAC’s assertion that it used a
   reasoned decision making process to close cases without
   imposing sanctions or taking other enforcement action. As
   indicated in the response, staffing of the Civil Penalties function
   relative to caseload remains a serious concern, especially should
   it lead to OFAC administratively closing cases for which it
   would otherwise take enforcement action. OFAC management



FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 24
Before Enforcement Action Could Be Completed (OIG-07-032)
   should continue to monitor this area and reassign or request
   additional resources if necessary.

                              ******

We would like to extend our appreciation to OFAC for its
cooperation and courtesies extended to our audit staff during the
audit. If you have any questions, please contact me at
(617) 223-8640, or Stephen Syriala, Audit Manager, at
(617) 223-8643.


/s/
Donald P. Benson
Director




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 25
Before Enforcement Action Could Be Completed (OIG-07-032)
                     Appendix 1
                     Objective, Scope, and Methodology




                     In April 2002, we reported that the Office of Foreign Assets
                     Control (OFAC) was limited in its ability to monitor financial
                     institution compliance with foreign sanction requirements due to
                     legislative impairments.13 During a follow-up audit to that report,
                     we identified concerns with the OFAC Civil Penalties Division’s
                     case closures and, as a result, initiated a separate review of
                     penalty case handling. Specifically, we were told by OFAC
                     personnel that OFAC did not have sufficient resources to handle
                     increasing penalty case workload. Accordingly, OFAC often closed
                     cases without determining whether penalties should have been
                     assessed or collected. The objective of this audit was to determine
                     whether OFAC Civil Penalties Division had effective controls to
                     ensure that penalty cases were finalized before the statute of
                     limitation (SOL) expired.

                     We reviewed OFAC civil penalty policies and procedures. We
                     interviewed appropriate OFAC Civil Penalties Division officials,
                     including the Director of the Civil Penalties Division, as well as
                     Information Technology Division personnel. We reviewed pertinent
                     management reports covering fiscal years 2002 through 2005,
                     including the General Counsel Report, Civil Penalties Annual Status
                     Report, Civil Penalties Collected Report, Civil Penalties Closed
                     Report, Case Report, Civil Penalties by Due Date Report, and Year
                     of Violation Report.

                     We evaluated the reliability and validity of the OFAC Civil Penalties
                     Division database. We identified cases that expired before penalties
                     were assessed and evaluated the factors that led to the OFAC Civil
                     Penalties Division’s failure to resolve cases before the expiration of
                     the 5-year SOL. We examined the staffing and caseloads and
                     evaluated the information available to management to monitor case
                     status.

                     We conducted our audit from March 2005 to April 2006, and
                     updated the information in November and December 2006. We
                     performed the audit in accordance with generally accepted
                     government auditing standards.


13
  FOREIGN ASSETS CONTROL: OFAC’s Ability To Monitor Financial Institution Compliance Is Limited
Due To Legislative Impairments (OIG-02-082, April 26, 2002).

                     FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 26
                     Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 2
Civil Penalties: Selected Definitions




OFAC Civil Penalties Division provided the following definitions.

Alternative dispute resolution: Used to reduce Cuban travel case
backlog by employing an informal settlement offer process to
resolve cases

Prepenalty notice: The first notice that goes out to inform a violator
of a civil monetary penalty

Penalty notice: A notice that goes 60 days after the prepenalty
notice

Hold: Further investigation needed

Pending: Has not yet been assigned

Closed: Case answered without penalty issued

Settlement: An arrangement reached in a financial proceeding




FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired   Page 27
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 28
Before Enforcement Action Could Be Completed (OIG-07-032)
            Appendix 3
            Management Response




OIG Comment 1


OIG Comment 2


OIG Comment 3




            FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 29
            Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 30
Before Enforcement Action Could Be Completed (OIG-07-032)
                Appendix 3
                Management Response




OIG Comment 4




OIG Comment 5




OIG Comment 6



OIG Comment 7




                FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 31
                Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 32
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 33
Before Enforcement Action Could Be Completed (OIG-07-032)
                Appendix 3
                Management Response




OIG Comment 8




                FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 34
                Before Enforcement Action Could Be Completed (OIG-07-032)
                    Appendix 3
                    Management Response




 OIG Comment 9




OIG Note: This is
Violator C in the
report.




OIG Comment 10




                    FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 35
                    Before Enforcement Action Could Be Completed (OIG-07-032)
                    Appendix 3
                    Management Response




 OIG Comment 11




OIG Note: This is
Violator B in the
report.




                    FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 36
                    Before Enforcement Action Could Be Completed (OIG-07-032)
            Appendix 3
            Management Response




OIG Comment 12




OIG Comment 13




OIG Comment 14




            FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 37
            Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 38
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 39
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 40
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 41
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 42
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 43
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 44
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 45
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 4
OIG Comments to Management Response




OIG Comment 1 We do not assume that the optimal result is for
OFAC to impose maximum penalty amounts allowed by statute.
We understand that penalties are mitigated and do not take
exception to that process. Our concern was that potential penalties
were not being assessed, in a large number of cases, because of
OFAC’s lack of timely action. We believe that when substantial
numbers of penalty cases are administratively closed in this
manner, the deterrent value of the penalty program is significantly
weakened and the wrong message is sent to those conducting
illegal transactions or activities.

OIG Comment 2 We disagree with the assertion that the report
incorrectly calculates the civil penalty amounts that would or could
be imposed. OFAC’s Office of Chief Counsel provided official
documentation prepared by the Civil Penalties Division, such as
prepenalty notices provided to the parties involved. The numbers
used in the report were based on those documents. We also
recognize in our report that penalty amounts may be reduced, often
substantially, if there are mitigating factors.

OIG Comment 3 Contrary to OFAC’s assertion in the management
response, OFAC officials attending the audit exit conference raised
no issues with the description of these cases and the penalty
estimates, other than to ask for additional details which we
provided. Subsequent to the exit conference, OFAC provided
additional information about the cases which we have considered
where appropriate in preparing this final report.

OIG Comment 4 As indicated in OIG Comment 2, the penalty
numbers we used in this report were provided by the Office of
Chief Counsel and were contained in official documentation.
OFAC’s comments also do not recognize that we made changes to
our draft report following suggestions that an earlier version used
certain terminology, such as “lost” when describing penalty dollars
not collected, that could be misinterpreted. We removed those
terms from the report. We also did not conclude that OFAC
improperly mitigated four cases. We had stated in an earlier draft
that the mitigation in these cases was significant. However,
OFAC’s Office of Chief Counsel provided clarifying information to
show that the expiration of SOL on a number of transactions


FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 46
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 4
OIG Comments to Management Response




associated with the cases had resulted in the reduction of potential
penalties. We adjusted our report accordingly.

OIG Comment 5 We do not state that certain cases were closed or
heavily mitigated because OFAC Civil Penalties officers and
management were unaware that the cases were nearing the
expiration of the SOL. However, we do state that the lack of
sufficient, accurate, and reliable information about case status and
disposition hampered Civil Penalties Division monitoring and
handling of the cases. We also cite other problematic factors,
stated by OFAC officials and staff during our audit, including
insufficient resources to address the increasing number of
sanctions programs and caseload, the unavailability of ALJs to
conduct required hearings, and the time other divisions or agencies
took to review the cases prior to cases being forwarded to the Civil
Penalties Division.

OIG Comment 6 We were not provided evidence to support the
assertion in the management response that OFAC made a
conscious decision to allow cases to expire because it knew that
some cases would not be concluded within the SOL.

OIG Comment 7 We clarified in the report that a violator could
waive (toll) the SOL for a certain time to negotiate a settlement.

OIG Comment 8 We were provided no evidence to support that the
295 cases were dropped because they could have been heavily
mitigated or were less important to pursue, nor did Civil Penalties
Division officials suggest this to be the case during our interviews
with them.

OIG Comment 9 For Violator A, OFAC Civil Penalties Division
documentation shows that OFAC originally identified potential
penalties of $1,763,295. However, the Prepenalty Notice to the
violator proposed a penalty of $1,279,521. OFAC reduced the
$1,783,295 originally identified by $483,774 to $1,279,521
because at the time of the Prepenalty Notice, the SOL had expired
on a number of counts. The Prepenalty Notice stated that “it is
policy not to file a complaint …in a debt collection action …where
the statute of limitations could be raised by the debtor as a


FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 47
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 4
OIG Comments to Management Response




defense.” Subsequent to issuance of the notice, the SOL expired
on additional counts totaling $269,870 in potential penalties. As a
result, the potential penalties not pursued totaled $753,644
($269,870 plus $483,774), reducing the potential penalty from
$1,763,295 to $1,009,651 for the remaining counts still within
the SOL.

OIG Comment 10 OFAC is correct in stating that the prepenalty
notice cites $31,444 as the proposed penalty. Similar to OIG
Comment 9, our review of the case file revealed that OFAC did not
pursue counts totaling an additional $254,451 since the SOL could
be raised by the violator as a defense. OFAC’s response in
appendix 3 refers to this case as alleged violator B (p. 7 of the
response).

OIG Comment 11 Our draft report included four cases. Based on
OFAC’s response, we dropped one case example involving a U.S.
bank for the operation of 4 accounts in violation of OFAC
sanctions. Although OFAC staff told us during our field work that
as much as $1.9 million in penalties could have been assessed
based on the transactions that flowed through the accounts, OFAC
subsequently provided additional materials which showed that the
maximum penalty that could be assessed was $44,000 ($11,000
per account). Based on mitigating factors, OFAC settled the matter
for $30,800. OFAC’s response in appendix 3 refers to this case as
alleged violator C (p. 8 of the response).

OIG Comment 12 For Violator B (which OFAC referred to as
alleged violator D in its response), the proposed prepenalty notice
and an internal memo cited the penalty as $1,739,969, which was
the total for 238 transactions in violation of the Cuban Assets
Control Regulations. When the prepenalty notice was issued on
June 3, 2004, the only amount still within the SOL was $50,788.
The penalties not pursued due to expiration of the SOL are the
difference between these two figures. OFAC’s response notes that
the counts were lost due an OFAC error which caused it to lose all
counts that were already beyond the SOL expiration date.

OIG Comment 13 As discussed above (OIG Comments 9-12), we
based the potential penalty amounts for these cases on prepenalty


FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 48
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 4
OIG Comments to Management Response




notices and/or other supporting documentation in the case files.
References we make to mitigated amounts are supported by OFAC
documentation.

OIG Comment 14 OFAC asserts in its management response that it
applied a reasoned decision-making process regarding which cases
it pursued, weighing the relevance of its cases to improving OFAC
compliance against OFAC staffing constraints. The evidence we
obtained during the audit does not support this statement. When
the SOL expired for the cases reviewed, we found no evidence that
this was intentional or occurred following a reasoned decision-
making process.




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 49
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 5
Major Contributors to This Report




Stephen Syriala, Audit Manager
Thomas Mason, Auditor-In-Charge
Shaneasha Edwards, Referencer
Esther Tepper, Communications Analyst




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 50
Before Enforcement Action Could Be Completed (OIG-07-032)
Appendix 6
Report Distribution




The Department of the Treasury

Under Secretary for Terrorism and Financial Intelligence
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Controls

Office of Foreign Assets Control

Director

Office of Management and Budget

OIG Budget Examiner




FOREIGN ASSETS CONTROL: OFAC Civil Penalty Cases Often Expired   Page 51
Before Enforcement Action Could Be Completed (OIG-07-032)
